HHS/OIG, Audit -"State of California: Review of Public Health Preparedness and Response for Bioterrorism Program Funds,"(A-09-02-01007)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"State of California:  Review of Public Health Preparedness and
Response for Bioterrorism Program Funds," (A-09-02-01007)
August 15 , 2003
Complete
Text of Report is available in PDF format (419 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that the California Department of Health Services (DHS) did not account
for bioterrorism program funds ($4.9 million received for the 2-year period ending August 30, 2001) by focus area as required
by the cooperative agreement with the Centers for Disease Control and Prevention (CDC), nor could it adequately support
program expenditures on financial reports submitted to CDC.  Specifically, DHS; 1) did not organize its accounting
system to record, summarize, and report expenditures by program focus area, 2) relied on summary spreadsheets maintained
outside the accounting system to prepare financial reports, 3) did not have adequate controls over the preparation and
review of financial reports, and 4) did not adequately monitor sub-recipients.  In addition to recommendations to
correct accounting and procedural weaknesses, we recommended that DHS determine, in coordination with the CDC, the amount
of bioterrorism program funds that were expended in each focus area, identify unallowable costs, and make adjustments to
current and future awards so that funds are rebalanced by focus area to provide appropriate levels of preparedness.  The
DHS concurred with our findings and recommendations.